October 4, 2010

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS


SUBJECT: Audit Report – Review of Wilkes-Barre, PA Processing and Distribution
         Facility Consolidation (Report Number NO-AR-11-001)

This report presents the results of our audit of the consolidation of mail processing
operations from the Wilkes-Barre, PA Processing and Distribution Facility (P&DF) to
the Scranton P&DF and Lehigh Valley Processing and Distribution Center (P&DC)
(Project Number 10XG040NO000). The report responds to a congressional request.
Our objectives were to assess the operational impacts of the consolidation and
compliance with established Area Mail Processing (AMP) policies. The audit
addresses operational risk. The consolidation was fully implemented at the Lehigh
Valley P&DC on October 24, 2009 and at the Scranton P&DF on January 17, 2010.
See Appendix A for additional information about this audit.

An AMP consolidation involves moving all originating and/or destinating mail from
one or more facilities into other processing facilities to improve operational efficiency
and/or service. This consolidation was unique because it was the first time the Postal
Service split both outgoing and incoming mail operations from one losing facility into
two different gaining facilities.

     Illustration: The Wilkes-Barre Post Office, former location of the Wilkes-Barre P&DF.
Review of Wilkes-Barre, PA Processing and Distribution                          NO-AR-11-001
 Facility Consolidation


Conclusion

We assessed the operational impacts of the consolidation and determined that a valid
business case existed for consolidating mail processing operations from the Wilkes-
Barre P&DF into the Scranton P&DF and the Lehigh Valley P&DC. Additionally, the
Postal Service followed established AMP policies and guidelines. Our analysis
showed:

       The Scranton P&DF and the Lehigh Valley P&DC had the capacity to process
        Wilkes-Barre P&DF volume.

       The consolidation increased efficiency.

       No career employee lost their job.

       Service has generally been maintained.

       Delayed mail had increased in the gaining facilities but was trending
        downwards.

As a result of the consolidation, the Postal Service projected savings of
approximately $6.1 million per year after the first year. However, we estimate the net
cost savings at $5.2 million as the Postal Service overstated savings by more than
$929,000. This cost savings was still positive and would not have impacted the
decision to consolidate mail processing. We will report this amount as non-monetary
impact in the “Predicted Savings Shortfall” category. We are not making a
recommendation on this finding because management took immediate action during
the audit to implement a new procedure to password-protect this type of data in the
future.

See Appendix B for our detailed analysis of this topic and see Appendix C for our non
monetary impact calculation.

Management’s Comments

Management agreed with the findings and provided an update indicating that actual
savings will exceed projections. See Appendix D for management’s comments in
their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the findings contained in the report.




                                                  2
Review of Wilkes-Barre, PA Processing and Distribution                     NO-AR-11-001
 Facility Consolidation


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Frank Neri
    Kristin A. Seaver
    Corporate Audit and Response Management




                                                  3
Review of Wilkes-Barre, PA Processing and Distribution                                          NO-AR-11-001
 Facility Consolidation


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There
                                                     ®
has been a continual decline in First-Class Mail (FCM) volume over the past decade.
Mail volume declined by more than 25 billion pieces during 2009, resulting in a net
loss of $3.8 billion. In the first three quarters of fiscal year (FY) 2010, the volume
decline was approximately 6.6 billion pieces with a net loss of $5.4 billion. The mail
volume decline in Q3, FY 2010 marked the fourteenth consecutive quarter of
accelerating volume declines.

Although the Postal Service reduced expenses by nearly $6 billion in FY 2009, it has
not been sufficient to fully offset the decline in mail volume revenue and the rising
cost of workers’ compensation and retirement costs. In testimony before Congress,1
the U.S. Government Accountability Office (GAO) recommended that the Postal
Service take urgent action to streamline the mail processing and retail networks, as it
no longer has sufficient revenue to cover the cost of maintaining its large network of
processing and retail facilities. The GAO also stated it was necessary for the Postal
Service to consider whether it was cost-effective to retain underused facilities and
take action to right-size its network.

Title 39, U.S.C. Part 1, Chapter 1, §101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further,
the September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at
reasonable rates.” The Postal and Accountability Enhancement Act, P.L.109-435-
December 20, 2006, Title II, highlights “. . . the need for the Postal Service to
increase its efficiency and reduce its costs, including infrastructure costs, to help
maintain high quality, affordable postal services. . . ”

This report responds to requests from U.S. Senators representing Pennsylvania and
Congressional Representatives of the 10th and 11th Districts of Pennsylvania to
independently examine consolidation of the Wilkes-Barre P&DF into the Scranton
P&DF and the Lehigh Valley P&DC. Congressional concerns included the following.

       Was the savings estimate of $6 million accurate?

       Did the consolidation impact service?

       Did the Postal Service follow AMP guidelines?


1
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.




                                                     4
Review of Wilkes-Barre, PA Processing and Distribution                                                             NO-AR-11-001
 Facility Consolidation


       Was there an increase in delayed mail and overtime, resulting in poor
        customer service and increased costs?

The Wilkes-Barre P&DF AMP involved consolidating both originating and destinating
mail processing operations (ZIP Codes 182, 186 and 187) into the Scranton P&DF
(Zip codes 184, 185, and 188) and the Lehigh Valley P&DC (ZIP Codes 180, 181,
and 183). All of these facilities are located in the Central Pennsylvania District in the
Eastern Area. The consolidation was fully implemented at Lehigh Valley P&DC on
October 24, 2009 and at the Scranton P&DF on January 17, 2010. See Chart 1 for
basic background information on this consolidation.

                                    Chart 1: Background and Map


               Scranton P&DF                                       Lehigh Valley P&DC
                  17 miles from Wilkes-Barre P&DF                    71 miles from Wilkes-Barre P&DF
                  Prior to Consolidation processed mail for          Prior to Consolidation processed mail for
                   ZIP Codes 184, 185, 188                             ZIP Codes 180, 181, 183
                  After Consolidation; added 3 digit ZIP             After Consolidation; added 3 digit ZIP
                   Codes 186, 187 from Wilkes-Barre P&DF               Code 182 from Wilkes-Barre P&DF




           Scranton                                                                                   Lehigh
           gained                                                                                     Valley
           69% of                                                                                     gained
           Wilkes-                                                                                    31% of
           Barre mail                                                                                 Wilkes-
                                                                                                      Barre mail




OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the operational impacts of the consolidation and
compliance with established AMP policies. We evaluated efficiency gains, capacity,
and impact on employees, customer service, transportation, cost savings and the
AMP processes.

We reviewed historical data for the Wilkes-Barre P&DF, the Scranton P&DF, and the
Lehigh Valley P&DC from January 1 to December 31, 2008 to confirm data on the
AMP worksheets. We also reviewed data from October 1, 2008 to July 20, 2010 to
analyze mail processing operations and efficiencies both before and after the
consolidation. We visited both the Scranton P&DF and the Lehigh Valley P&DC to
conduct interviews and observations the week of July 12, 2010 and the week of



                                                               5
Review of Wilkes-Barre, PA Processing and Distribution                                                 NO-AR-11-001
 Facility Consolidation


August 16, 2010. We interviewed Postal Service officials and employees and
reviewed applicable guidelines, including Handbook PO-4082.

We used computer-generated data from the following systems to analyze workhours,
mail volume, staffing, service, transportation, and maintenance.

        Activity-Based Costing.

        Enterprise Data Warehouse.

        Web End of Run Application.

        Service Standard Directory.

        Transportation Contracting Support System.

        Web Complement Information System.

We assessed the reliability of computer-generated data by interviewing Postal
Service officials knowledgeable about the data. We determined that the data were
sufficiently reliable for the purposes of this report.

We conducted this performance audit from June through October 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on September 2 and 10,
2010 and included their comments where appropriate.




2
  Handbook PO-408-Area Mail Processing guidelines March 2008- AMP feasibility study determines whether
there is a business case for relocating processing and distribution operations from one location to another. An
AMP feasibility study must be conducted when a new facility project incorporates operations from two or more
offices.




                                                         6
    Review of Wilkes-Barre, PA Processing and Distribution                                      NO-AR-11-001
     Facility Consolidation


    PRIOR AUDIT COVERAGE

                                               Final Report
     Report Title         Report Number                                       Report Results
                                                   Date
Area Mail Processing       EN-AR-09-001          2/4/2009     The Postal Service improved communication
Communication                                                 and management has generally addressed
                                                              prior audit recommendations. We
                                                              recommended several methods of further
                                                              increasing stakeholder notification, including
                                                              exploring electronic methods. Management
                                                              agreed with our recommendation to add
                                                              employee input notifications, but disagreed
                                                              with our recommendation to explore additional
                                                              communication channels.
Canton Processing          NO-AR-09-011         9/22/2009     The report determined it was a prudent
and Distribution                                              decision to consolidate the Canton P&DF’s
Facility Outgoing Mail                                        outgoing mail processing operation into the
Processing Operation                                          Akron P&DC. We made no recommendations.
Consolidation
New Castle                 NO-AR-10-002          2/1/2010     The report determined it was a prudent
Processing and                                                decision to consolidate the New Castle P&DF’s
Distribution Facility                                         outgoing mail processing operations into the
Outgoing Mail                                                 Pittsburgh P&DC. The Postal Service could
Processing Operation                                          save more than $1.8 million annually. We
Consolidation                                                 made no recommendations.
Lakeland Processing        EN-AR-10-004         2/12/2010     There was a valid business case for the
and Distribution                                              consolidation. It will increase efficiency, reduce
Center Consolidation                                          processing costs, and improve service. We
                                                              made no recommendations.
Manasota Processing        EN-AR-10-003         2/12/2010     We concluded there was a business case for
and Distribution                                              consolidating mail processing operations from
Center Consolidation                                          the Manasota P&DC into the Tampa P&DC.
                                                              The consolidation should increase efficiency,
                                                              reduce processing costs, and improve service.
                                                              We recommended the vice president, Network
                                                              Operations, ensure the beginning of P&DC
                                                              consoldiation immediately after area mail
                                                              processing proposal approval and require
                                                              headquarters' approval when implementation
                                                              is delayed more than 3 months. We also
                                                              recommended the vice president enable the
                                                              automatic feed into the Web Management
                                                              Operation Data System for Express Mail
                                                              scanning operations.




                                                      7
    Review of Wilkes-Barre, PA Processing and Distribution                                     NO-AR-11-001
     Facility Consolidation


                                               Final Report
     Report Title         Report Number                                      Report Results
                                                   Date
Dallas Processing and      NO-AR-10-003         2/24/2010     A business case existed to support the
Distribution Center                                           consolidation. There was capacity, the
Outgoing Mail                                                 potential to improve customer service and
Consolidation                                                 efficiency, impact a limited number of
                                                              employees, and the Postal Service could save
                                                              $114 million over a 10-year period.
                                                              Management agreed with the
                                                              recommendations.
Consolidation of the       NO-AR-10-007          7/2/2010     A business case existed to support
Lima P&DF Mail                                                consolidating the Lima P&DF’s mail operations
Operations Into the                                           into the Toledo P&DC. As a result of this
Toledo P&DC                                                   consolidation, the Postal Service will save $1.8
                                                              million during the first year and $2.3 million
                                                              during subsequent years. Management agreed
                                                              with the recommendations.
Charlottesville            NO-AR-10-008          8/3/2010     There was a valid business case for the
Processing and                                                consolidation. There was capacity, the
Distribution Facility                                         potential to improve customer service, and
Consolidation                                                 efficiency. No employee will lose their job and
                                                              the Postal Service could save $6.5 million
                                                              annually. We made no recommendations.




                                                      8
Review of Wilkes-Barre, PA Processing and Distribution                                                   NO-AR-11-001
 Facility Consolidation


                                APPENDIX B: DETAILED ANALYSIS

Capacity

Adequate capacity exists at both facilities to process increased mail volume as a
result of the consolidation.

        The increase in mail volume at the Lehigh Valley P&DC would be about 10
         percent, or approximately 74 million First-Handled Pieces (FHP)3 over
         calendar year (CY) 2009 levels. However, the Lehigh Valley P&DC
         experienced an 11 percent decline in mail volume between CYs 2008 and
         2009, effectively offsetting the increase in mail volume received as a result of
         the consolidation.

        The increase in mail volume at the Scranton P&DF was more significant and
         represents a 55 percent increase, or approximately 165 million FHP over CY
         2009 levels. Between CY 2008 and 2009, the Scranton P&DF experienced a
         decline of approximately 6 percent in FHP mail volume, resulting in a net
         increase of 49 percent after the consolidation. However, to help process this
         increased mail volume, the Scranton P&DF gained 103 craft positions, an
         increase of 48 percent.

In addition, sufficient machine capacity exists at the Scranton P&DF and the Lehigh
Valley P&DC to process all the mail from the Wilkes-Barre P&DF. Our analysis
showed that, after the consolidation, both facilities still have additional mail
processing capacity. The Scranton P&DF, after consolidation, has the capacity to
process an additional 21,993,416 pieces of mail, or 5 percent of Total Pieces
Handled (TPH)4 volume. Likewise, the Lehigh Valley P&DC, after consolidation, has
the capacity to process an additional 29,988,689 pieces of mail, or 4 percent of TPH
volume.

This excess capacity resulted, in part, from a transfer of equipment from Wilkes-Barre
P&DF. For example, the Scranton P&DF acquired one Advanced Facer Canceller
System,5 one Delivery Barcode Sorter (DBCS) with input/output subsystem kit, and
four DBCS machines.6 The Lehigh Valley P&DC acquired two additional DBCS
machines.




3
  Mail volume recorded into the operation where it receives its first handling.
4
  The number of handlings necessary to distribute each piece of mail from receipt to dispatch.
5
  Equipment used in the first step of mail processing to face, cancel, and separate the optical character-readable
mail and the pre-barcoded mail from the non-readable mail.
6
  Equipment that sorts letter-size mail by using a barcode reader to interpret an imprinted barcode. It consists of a
mail feed and transport unit, barcode reader, stacker module, and associated electronic equipment that can sort
into a large number of separations.




                                                          9
Review of Wilkes-Barre, PA Processing and Distribution                                               NO-AR-11-001
 Facility Consolidation


The additional mail volume should pose no problem at either facility because
increased staffing, new equipment, and efficiency gains will provide sufficient
capacity to process all mail volume.

Efficiency

Following the consolidation, efficiency improved at both the Scranton P&DF and the
Lehigh Valley P&DC. Specifically:

       The Scranton P&DF’s Breakthrough Productivity Initiative (BPI)7 achievement
        improved by 1 percent and FHP productivity improved by 20 percent.

       The Lehigh Valley P&DC’s BPI achievement improved 6 percent and FHP
        productivity8 improved by 4 percent.

Moreover, the Scranton P&DF and the Lehigh Valley P&DC used 53,876 (or 8
percent) fewer workhours to process combined mail volumes compared to the same
period last year.9 This workhour savings represents 78 percent of the 69,15410
workhour savings projected in the AMP Study. The Postal Service is on target for
meeting its workhour savings projection.

In addition to the increased efficiency as a result of the consolidation, processing
costs were also significantly reduced. Specifically:

       The cost to process 1,000 mailpieces at the Scranton P&DF before the
        consolidation in January 2009 was $25.02, and it dropped to $17.87 after the
        consolidation as of January 2010.

       The cost to process 1,000 mailpieces at the Lehigh Valley P&DC before the
        consolidation in January 2009 was $26.74, and it dropped to $24.16 after the
        consolidation as of January 2010.

       The cost to process 1,000 mailpieces at the Wilkes-Barre P&DF before the
        consolidation in September 2009 was $26.10, which was higher than the cost
        to process 1,000 mailpieces at the Scranton P&DF and the Lehigh Valley
        P&DC after the consolidation.




7
  A consistent integrated approach to analyze data to drive productivity improvements based on established
targets for every operation. Productivity is measured in relation to these targets.
8
  We calculated FHP productivity by dividing FHP volume by total Function 1 workhours including standby time.
9
  We compared the period January 17 to July 20, 2009 before the consolidation to the period of January 17 to July
20, 2010 after the consolidation.
10
   These workhours do not include the 94,500 workhour overstatement the OIG identified.




                                                       10
Review of Wilkes-Barre, PA Processing and Distribution                                                NO-AR-11-001
 Facility Consolidation


Employee Impact

The consolidation of the Wilkes-Barre P&DF into the Scranton P&DF and the Lehigh
Valley P&DC required the reassignment of all 194 Wilkes-Barre P&DF employees.
Initially the AMP Study projected that management would move 80 craft positions to
the Scranton P&DF and 38 positions to the Lehigh Valley P&DC, while the remaining
76 positions would be lost. See Chart 2 for employee projections.

                         Chart 2: Craft Employee AMP Study Projections

                                                     Before        After
                                                                              Difference
                                                      AMP          AMP
                      Wilkes-Barre P&DF                  194             0              (194)
                      Scranton P&DF                      214           294                 80
                      Lehigh Valley P&DC                 542           580                 38
                      Projected Position Loss               0           76                 76

The actual employee impact was different from the original projections in the AMP
Study because of the early retirement incentive offered11 before the consolidation
was implemented and a local APWU agreement to reassign employees within close
proximity of Wilkes-Barre. As a result, the Scranton P&DF received more employees
than listed in the AMP Study and the Lehigh Valley P&DC received fewer.
Specifically:

          The Scranton P&DF acquired 103 craft positions and seven management
           positions from the Wilkes-Barre P&DF, more positions than projected in the
           AMP (80 craft and four EAS);

          The Lehigh Valley P&DC acquired 12 craft positions from the Wilkes-Barre
           P&DF, fewer positions than projected in the AMP (38 craft and four EAS);

          Management reassigned 59 craft positions positions to the Wilkes-Barre Post
           Office; and

          Management assigned 11 craft positions and five management positions to
           other local facilities.

Employees impacted by the consolidation were reassigned, accepted the early
retirement incentive or resigned. Consequently, no career employees lost their job.

The early retirement incentive had a significant impact on the three facilities involved
in the AMP consolidation. The three facilities lost a total of 97 employees, or 9
percent of their complement to retirement. Specifically:

11
     October 31, 2009 was the retirement date for employees who accepted the early retirement incentive.




                                                         11
Review of Wilkes-Barre, PA Processing and Distribution                                                   NO-AR-11-001
 Facility Consolidation



          The Scranton P&DF lost 20 craft employees to retirement.

          The Lehigh Valley P&DC lost 47 craft employees to retirement.

          The Wilkes- Barre P&DF lost 29 craft employees to retirement.

Customer Service

The consolidation generally did not impact service scores. We found that External
First-Class Measurement (EXFC)12 scores13 for the Wilkes-Barre P&DF (before
consolidation), Scranton P&DF and the Lehigh Valley P&DC were comparable both
to Eastern Area EXFC scores and each other prior to the consolidation.

          Before the consolidation, all three facilities’ overnight scores were below the
           Eastern Area average. After the consolidation, overnight scores increased at
           both Scranton P&DF and Lehigh Valley P&DC and, as of the date of the audit,
           the Lehigh Valley P&DC’s score was above the Eastern Area average while
           the Scranton P&DF’s score was slightly below.

          Before the consolidation, two-day scores at all three facilities were slightly
           below the Eastern Area average. After the consolidation, the Lehigh Valley
           P&DC two-day score was slightly above the Eastern Area average, while
           Scranton P&DF was slightly below.

          Before the consolidation, three-day scores at all three facilities were below the
           Eastern Area average. After the consolidation, Scranton P&DF and Lehigh
           Valley P&DC three-day score declined slightly following the consolidation as
           did the three-day scores for the Eastern Area during the same period. See
           Chart 3 and Chart 4 for EXFC scores.




12
     A test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery.
13
     We compared EXFC scores from Q2, Q3, and Q4 of 2009 to EXFC scores from Q2, Q3, and Q4 of 2010.




                                                          12
Review of Wilkes-Barre, PA Processing and Distribution                                                       NO-AR-11-001
 Facility Consolidation


                                      Chart 3: Overnight EXFC Scores

                                                           Overnight
                                        Lehigh                    Wilkes
                                                       Scranton                    Eastern
                                        Valley                     Barre
                                                        P&DF                        Area
                                        P&DC                      P&DF
                     Before
                     Consolidation
                     Q2, Q3, Q4              95.85          94.6        95.12        96.07
                     2009
                     After
                     Consolidation
                     Q2, Q3, Q414            96.68         95.34          N/A        96.06
                     2010
                     Increase/
                     Decrease                 0.83          0.74          N/A         -0.01


                              Chart 4: Two and Three Day EXFC Scores

                                       2–Day                                               3-Day
                     Lehigh                Wilkes                         Lehigh                Wilkes
                                 Scranton                  Eastern                   Scranton                Eastern
                     Valley                 Barre                         Valley                 Barre
                                  P&DF                      Area                      P&DF                    Area
                     P&DC                   P&DF                          P&DC                   P&DF
     Before
     Consolidation
                        93.4         92.47     93.31         93.57          92.03        90.78   91.31         92.65
     Q2, Q3, Q4
     2009
     After
     Consolidation
                       93.46         92.41                   93.24          91.61        90.46                 92.46
     Q2, Q3, Q415                                    N/A                                            N/A
     2010
     Increase/
     Decrease           0.06         -0.06             0        -0.33       -0.42        -0.32           0      -0.19




The number of net service delivery standards16 will improve for all categories of mail
which would effectively increase service. Between the two gaining facilities, there are
a total of 1,473 upgrades and 24 downgrades resulting in an overall net impact of
1,449 upgrades. In addition, with regard to the Postal Service’s premier services of
Priority Mail and First-Class Mail, there were a total of 63 upgrades with no
downgrades. Chart 5 shows the number of service standard changes by class of
mail.




14
   Available data for Q4 2010 pulled as of September 14, 2010.
15
   Available data for Q4 2010 pulled as of September 14, 2010.
16
   An expectation of the Postal Service to deliver a mailpiece to its destination within a prescribed number of days
following proper deposit by a customer.




                                                           13
           Review of Wilkes-Barre, PA Processing and Distribution                                     NO-AR-11-001
            Facility Consolidation



                                        Chart 5: Service Standard Impacts

                        Scranton P&DF                                              Lehigh Valley P&DC

                   Service Standard Impacts                                      Service Standard Impacts


                Upgrades       Downgrades         Net Change                    Upgrades    Downgrades      Net Change


Priority                39                    0            39     Priority             24               0              24

FCM                     39                    0            39     FCM                  24               0              24

Periodicals             51                    4            47     Periodicals         348               4             344

Standard                12                    4              8    Standard            918               4             914

Packages                12                    4              8    Packages              6               4                2

Total                  153                  12            141     Total             1,320             12             1,308


           Additionally, there were no changes to local mail box collection times or business
           mail entry unit operations as a result of the consolidation. Although most mail will
           receive either the Scranton P&DF or Lehigh Valley P&DC postmark, the Wilkes-Barre
           postmark remains available at the local retail unit upon request.

           Delayed Mail

           Before the consolidation, all three facilities had delayed mail. For example, from
           January 17 through July 20, 2009, Wilkes Barre P&DF, had delayed mail of 4.4
           percent of total FHP volume, while Scranton P&DF had 3.3 percent and Lehigh
           Valley P&DC had 9.4 percent of the total FHP volume. Although the Scranton P&DF
           received a significant increase in mail volume as a result of the consolidation, the
           facility has shown a decline in delayed mail as a percentage of total FHP volume.
           However, the Lehigh Valley P&DC experienced an initial increase in delayed mail
           after the consolidation.

           Moreover, beginning in July and continuing through August 2010, delayed mail
           volume declined significantly. For example, for July and August 2010, the amount of
           delayed mail at the Lehigh Valley P&DC fell from an earlier high of 12.3 percent of
           total mail volume to 4.2 percent of total mail volume. See Chart 6 for a breakdown of
           delayed mail at both facilities.




                                                             14
Review of Wilkes-Barre, PA Processing and Distribution                                                NO-AR-11-001
 Facility Consolidation




                                           Chart 6: Delayed Mail

                               Scranton P&DF                                    Lehigh P&DC
                                              July 1 -                             July 1 -
                   January 17- January 17- August 31, January 17- January 17- August 31,
                  July 20, 2009 July 20, 2010  2010    July 20, 2009 July 20, 2010  2010
     Total FHP
                   144,601,994 262,575,770 80,513,606 372,151,350 387,350,828 118,748,920
     Volume
     Total
     Delayed          4,742,609      7,211,839        375,842     35,045,003      47,476,630       5,044,997
     Mail
     Total
     Delayed
     Mail as a             3.3%            2.7%          0.5%            9.4%          12.3%            4.2%
     Percentage
     of FHP

The Scranton P&DF was able to process the increase in mail volume efficiently
because they received more employees than the number projected in the AMP
Study. However, the Lehigh Valley P&DC experienced difficulty with the timely
processing of mail following the consolidation. Several factors contributed to the
increase in delayed mail. Specifially, the Lehigh Valley P&DC:

        Gained 12 of 38 employees projected in the AMP Study.

        Lost 47 employees due to the early retirement.

        Closed 3 days due to snowstorms.17

Overtime

During the implementation phase of the consolidation (September through December
2009), overtime at both the Scranton P&DF and the Lehigh Valley P&DC increased.
Overtime at the Scranton P&DF increased from 9 percent to 14 percent, while
overtime at the Lehigh Valley P&DC increased from 8 percent to 17 percent. Factors
that contributed to the increase were:

        Employees taking advantage of the early retirement incentive.

        Management at the two facilities not fully adjusting to the increase in workload.



17
  The Lehigh Valley P&DC was closed on February 10, 25, and 26, 2010 due to a significant snowfall.
Furthermore, turnpikes and highways were closed to traffic which impacted transportation to and from the plant.




                                                       15
Review of Wilkes-Barre, PA Processing and Distribution                                                 NO-AR-11-001
 Facility Consolidation


Although both facilities experienced an initial increase in overtime, other facilities
experience the same issue in the period following a consolidation. After the
consolidation was fully implemented, overtime decreased at both facilities and, as of
June 30, 2010, was at 7 percent. The year-to-date national average for overtime is
also 7 percent.

Cost Savings

Cost savings from the consolidation resulted primarily from a reduction in workhours,
offset by one-time costs associated with the elimination of the Wilkes-Barre P&DF.
Our analysis found that the net annual savings projected in the AMP Study were
overstated by more than $929,000. See Chart 7 for a breakdown of cost savings.

                                          Chart 7: Cost Savings Breakdown

                                            Postal Service
                                                                             OIG Calculations
                                              Calculations
                                        First Year     Annual            First Year         Annual
                                         Savings       Savings            Savings           Savings
            Mail Processing
                                       $3,780,000 $3,780,000             $2,778,608 $2,778,60818
            Craft Workhours
            Non-Mail
            Processing Craft                67,790            67,790           67,495            67,495
            Workhours
            PCES/EAS Savings             1,143,539       1,143,539         1,143,538         1,143,538
            Transportation
                                         (474,267)       (474,267)         (401,851)        (401,851)19
            Costs
            Maintenance
                                         1,578,911       1,578,911         1,578,911         1,578,911
            Savings
            One-Time Costs               (197,775)                         (111,215)

            Net Cost Savings           $5,898,198 $6,095,973             $ 5,055,486        $5,166,701

Craft Workhours

Craft workhour savings projected in the AMP Study were overstated by 94,500. This
occurred because controls were not in place to ensure that data used in the manual
summary page for AMP projections was protected from changes. There was no
criteria in place because manual adjustments to the AMP worksheets were not
addressed in Handbook PO-408. The use of inaccurate data on the AMP worksheet
could affect the business case for the consolidation. However, in this case, the overall
savings of approximately $5.2 million per year after the first year is still more than

18
     We calculated the craft workhour savings by multiplying 69,154 workhours times labor rate of $40.18.
19
     The data used to calculate the transportation cost was as of March 1, 2009 and March 1, 2010.




                                                         16
Review of Wilkes-Barre, PA Processing and Distribution                                                  NO-AR-11-001
 Facility Consolidation


sufficient to justify the consolidation. We are not making a recommendation on this
finding because management took immediate action during the audit to implement a
new procedure to password-protect this type of data in the future.

Potential Additional Cost Savings

After the consolidation, the Wilkes-Barre P&DF was repurposed for carrier operations
which were formerly housed at the Kingston Branch and Wilkes-Barre Annex.20 Going
forward, the Postal Service plans to sell the Wilkes-Barre Annex and the Kingston
Branch.

AMP Process

The Postal Service followed AMP guidelines even though some steps were not
completed within established timeframes. According to management, they did not
always meet established timeframes because of the complexity of the AMP Study
where there were multiple gaining facilities. Not meeting these timeframes did not
adversely affect the consolidation. See Chart 8 for a timeline of events.




20
   107 city routes, two collection routes, 25 rural routes, and one highway contract delivery route were relocated
from the Wilkes-Barre Annex and Kingston Branch.




                                                         17
Review of Wilkes-Barre, PA Processing and Distribution                                             NO-AR-11-001
 Facility Consolidation



                                    Chart 8: Timeline of Events

                                                                                      Conducted
                               Event                                   Date           Within AMP
                                                                                      Timeframe
       The area vice president (AVP) notified the
       district or the district notified AVP of the                    1/7/2009                   N/A
       intent to conduct a study.
       Stakeholders were notified of the intent to
                                                                       1/7/2009                   Yes
       conduct a study.
       The district manager completed the
       feasibility study and submitted it to the AVP
                                                                       6/4/2009                  No21
       within 2 months of notification to conduct
       study.
       The district held a public hearing within 45
                                                                       4/7/2009                  No22
       days after study was submitted to the AVP.
       The district summarized information from
       the public meeting and written comments                       4/22/2009                    Yes
       within 15 days after the meeting.
       Area and headquarters reviewed the
       feasibility study within 60 days from the                       6/8/2009                   Yes
       time the study was submitted to the AVP.
       The AVP approved the study after finalized
       worksheets were approved by area and
                                                                     7/13/2009                    Yes
       headquarters and submitted it to the senior
       vice president (SVP), Operations.
       SVP approved the study within 2 weeks of
                                                                     8/21/2009                   No23
       receipt from the AVP.




21
   The actual completion time was 4 months, 28 days. According to management, this was due to the complexity
of the study, multiple gaining sites, and preparation of the manual summarizer which resulted in the need for
additional time for the district to complete the study.
22
   The public meeting was held before the study was submitted to AVP, not after. The public meeting was
scheduled in anticipation of study submission and to ensure adequate time for public feedback.
23
   The actual time was 1 month and 8 days.




                                                      18
Review of Wilkes-Barre, PA Processing and Distribution                                               NO-AR-11-001
 Facility Consolidation


                           APPENDIX C: NON-MONETARY IMPACT

                                         Non-Monetary Impact

              Finding               Impact Category                                      Amount
          Net Cost Savings Predicted Savings Shortfall24                                 $929,272
             Projection
            Overstated

Note

We based this non-monetary impact on the overstatement of net projected savings in
the AMP Study submitted by the Eastern Area. The AMP Study predicted savings of
approximately $6.1 million and we calculated savings of approximately $5.2 million.




24
  The difference between the savings predicted by the Postal Service for a consolidation and the OIG estimate of
savngs which will be realized.




                                                       19
Review of Wilkes-Barre, PA Processing and Distribution    NO-AR-11-001
 Facility Consolidation


                        APPENDIX D: MANAGEMENT COMMENTS




                                                  20
